!

APPENDIX A
Court of Appeals Opinion

Case: 19-30052, 01/06/2021, ID: 11953874, DktEntry: 30-1, Page 1 of 6

NOT FOR PUBLICATION

FILED

UNITED STATES COURT OF APPEALS

JAN 6 2021

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

UNITED STATES OF AMERICA,.
Plaintiff-Appellee,
v.

No. 19-30052
D.C. No. 3:17-cr-00369-SI-l
MEMORANDUM*

JOHN M. WASSON,
Defendant-Appellant.
Appeal from the United States District Court
for the District of Oregon
Michael H. Simon, District Judge, Presiding
Submitted June 4, 2020**
Portland, Oregon
Before: BERZON and COLLINS, Circuit Judges, and CHOE-GROVES,*** Judge.
John Wasson appeals his conviction, after a jury trial, on a single count of
willful depredation of government property, with damage exceeding $1,000, in
violation of 18 U.S.C. § 1361. We affirm.
1. Reviewing de novo, we agree with the district court’s conclusion that the

* This disposition is not appropriate for publication and is not precedent except as
provided by Ninth Circuit Rule 36-3.
** The panel unanimously concludes that this case is suitable for decision without
oral argument. See Fed. R. App. P. 34(a)(2)(C).
*’* The Honorable Jennifer Choe-Groves, Judge for the United States Court of
International Trade, sitting by designation.
APPENDIX A

Case: 19-30052, 01/06/2021, ID: 11953874, DktEntry: 30-1, Page 2 of 6

evidence was sufficient to permit a rational jury to find the elements of the charged
offense beyond a reasonable doubt. United States v. Sandoval-Gonzalez, 642 F.3d
717, 727 (9th Cir. 2011).
a. Asserting that the jury instructions’ very specific definition of willfulness
improperly raised its burden of proof, the Government argues that we must
disregard that instruction and instead evaluate the sufficiency of the evidence of
willfulness under what it contends is the correct legal standard. See Musacchio v.
United States, 136 S. Ct. 709,715 (2016). We need not resolve this issue because,
even assuming that the instruction was correct (as Wasson contends), the
Government’s evidence of willfulness was sufficient.
To show willfulness under the jury instructions, the Government had to
prove beyond a reasonable doubt that (1) “Wasson knew that he had a duty to
submit a notice of intent or a plan of operations to the United States Forest Service
District Ranger for any operations that might cause significant disturbance of
surface resources”; (2) “Wasson intentionally and voluntarily violated that duty”;
and (3) Wasson “did not have a good[-]faith belief that he was complying with the
law.” The Government therefore had to show, inter alia, that Wasson did not have
a good-faith belief that he was not required to submit a notice of intent in
connection with his mining activities on land managed by the U.S. Forest Service
(“USFS”). The trial record contains ample evidence to permit a rational jury to

APPENDIX A

2

Case: 19-300

01/06/2021, ID: 11953874, DktEntr.

0-1, Page 3 of 6

find, beyond a reasonable doubt, that Wasson had not acted in good faith in failing
to submit a notice of intent.
Wasson was well aware from his prior legal conflicts with the USFS that
extended maintenance of a campsite could lead to degradation of the surface
resources by killing the vegetation in the immediate area. Wasson had been
convicted of unlawful occupancy of USFS land in 2013, and his conviction v/as
affirmed by the district court and by this court. In 2014, a USFS special agent
reiterated to Wasson that the USFS was concerned about the “level of his
occupancy,” which USFS thought “was causing significant damage to the surface
resources.” The special agent referenced Wasson’s prior conviction of unlawful
occupancy, and Wasson responded that the judges “got it wrong.”
Thereafter, in 2017, the special agent noticed that digging, as well as
removal of grass and trees, had been used to create a new road to Wasson’s thencampsite. The special agent also testified that Wasson had “cleared a bunch of
vegetation” to create this new campsite, including cutting trees to fit a camper and
laying a wood foundation for the tent. A search of the campsite revealed two fivegallon containers that were leaking vegetable oil, as well as a document about
making “biodiesel” fuel. Wasson also had at the campsite a USFS flyer stating that
a “14-day stay limit” was enforced to protect resources.
Moreover, a USFS employee named Travis Whitman testified that, after

APPENDIX A

3

Case: 19-300

01/06/2021, ID: 11953874, DktEntr.

0-1, Page 4 of 6

viewing Wasson’s campsite and being told by Wasson that he intended to stay
“through the season and into the fall,” Whitman personally told Wasson in July
2017 that he needed to submit a notice of intent. Wasson’s response was not that
his activities did not entail the level of surface-resource disturbance required to
trigger the need to submit a notice of intent. Rather, Wasson’s response was that—
despite his prior conviction—the “Forest Service regulations didn’t cover
occupancy” and that the National Environmental Policy Act (“NEPA”) process
that might result “was too long and time-consuming.” Whitman testified that
Wasson’s reference to NEPA was notable because the USFS does not “initiate ,
NEPA on a notice[] of intent unless that activity may have some sort of significant
impact to surface resources.”
In light of this evidence—all of which was presented in the Government’s
case-in-chief—a reasonable jury could find that Wasson knew that his activities •
involved a significant disturbance of surface resources; that he knew that he
therefore had to submit a notice of intent; and that he acted in bad faith in failing to
do so. The evidence was therefore sufficient to establish willful depredation of
government property.
b. The evidence was likewise sufficient to prove that Wasson’s depredation
caused more than $1,000 in damage to government property. Contrary to what
Wasson contends, our decision in United States v. Seaman, 18 F.3d 649 (9th Cir.

APPENDIX A

4

*-k ■

i-

Case: 19-300

01/06/2021, ID: 11953874, DktEntr

0-1, Page 5 of 6

1994), does not hold that, in a damage-to-govemment-land case, the sole measure
of damage under § 1361 is the difference in the value of that land before and after
the damage. Although we noted that no such difference-in-value evidence had
been introduced in Seaman, we made that observation only after also noting that
the Government’s photographic evidence was insufficient to provide “any basis for
evaluating damage in monetary terms” and that the record as a whole contained
“no evidence whatsoever” of the requisite amount of damage. Id. at 651. Here, by
contrast, the Government did present evidence of valuation in the form of
reasonable remediation costs to repair the damage Wasson had caused. These -»■
included estimated future costs to remediate the road as well as already-incurred
costs to remove the vegetable oil and contaminated soil. Either of these measures
is sufficient to permit a reasonable jury to find more than $1,000 in damage beyond
a reasonable doubt.
2. The district court did not abuse its discretion by excluding photographs
proffered by Wasson concerning neighboring campsites. See United States v.
Alvirez, 831 F.3d 1115,1120 (9th Cir. 2016). Even assuming that these 2018
photographs depicted the way these other campsites “looked to Mr. Wasson in
2017,” the district court properly excluded them on the ground that there was an
insufficient foundation to tie them to Wasson’s willfulness or good faith. As the
Government explained, and the district court agreed, there was no evidence as to

APPENDIX A

5

Case: 19-30052, 01/06/2021, ID: 11953874, DktEntry: 30-1, Page 6 of 6

whether a notice of intent or plan of operations existed for those sites or whether
the individuals involved had been warned as Wasson had. To the extent that the
photographs would have impeached the testimony that a USFS ranger had offered
concerning other sites, the district court properly noted that Wasson had failed to
use the photographs during that cross examination and that admission of the
photographs after-the-fact was inconsistent with Federal Rule of Evidence 608(b).
See Ortiz v. Yates, 704 F.3d 1026, 1038 (9th Cir. 2012) (“As a general matter, a
witness may not be contradicted by extrinsic evidence on a collateral matter.”).
AFFIRMED.

APPENDIX A

6

;

APPENDIX B
District Court Opinion and Order.

<Sa££

J

Case 3:17-ci
AO 2450

369-SI

Document 89

Filed 03/0

)

Page lot 6

Judgment in a Criminal Case - DISTRICT OF OREGON CUSTOMIZED (Rev. 9/2017)
Sheet 1
•,

UNITED STATES DISTRICT COURT
DISTRICT OF OREGON
UNITED STATES OF AMERICA
Plaintiff,

JUDGMENT IN A CRIMINAL CASE
Case No.: 3:17-CR-00369-SI-l

v.

USM Number: 80710-065.

JOHN M. WASSON

Jesse A. Merrithew,
Defendant’s Attorney

Defendant.

Jennifer J. Martin,
Assistant U.S. Attorney

THE DEFENDANT:
□ was found guilty on count l of the Indictment after a plea of not guilty.
The defendant is adjudicated guilty of the following offense(s):
Title, Section & Nature of Offense
18:1361 and 2 - Depredation of Government Property

Date Offense Concluded
Beginning on or about 5/1/2017
and continuing until 10/4/2017

Count Number
I

The defendant is sentenced as provided in pages 2 through 6 of this judgment.' The sentence is imposed pursuant to the Sentencing
Reform Act of 1984.
□ The defendant has been found not guilty on count(s) and is discharged as to such count(s).
□Count(s) are dismissed on the motion of the United States.
□ The defendant shall pay a special assessment in the amount of $ 100.00 for Count(s) 1 of the Indictment payable to the Clerk of the
U.S. District Court. (See also the Criminal Monetary Penalties Sheet.)
IT IS ORDERED that the defendant shall notify the United States Attorney for this district within 30 days of any change of name,
residence, or mailing address until all Fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If
ordered to pay restitution, the defendant shall notify the court and United States Attorney of any material change in the defendant’s
economic circumstances.
March 5. 2019

a^ ofTmposition of Septdmg^^
§ignatuj/of JudiciaKjfficer
Michael H. Simon, U.S. District Judge
Name and Title of Judicial Officer
March 5,2019
Date

APPENDIX B

Case 3:17-cr-00369-SI

Document 89

Filed 03/05/19

Judgment in a Criminal Case - DISTRICT OF OREGON CUSTOMIZED (Rev. 9/2017)
Sheet 4 - Probation
DEFENDANT: JOHN M. WASSON
CASE NUMBER: 3:17-CR-00369-SI-1

Page 2 of 6

A0 245B

Judgment-Page 2 of 6

PROBATION
. The defendant is hereby sentenced to probation for a term of FIVE (5) YEARS.

MANDATORY CONDITIONS
1.
2.
. 3.

4.
5.
- 6.

7.
8.
9.
10.

You must not commit another federal, state or local crime.
You must not unlawfully possess a controlled substance.
You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of
release from imprisonment and at least two periodic drug tests thereafter, as determined by the court.
□The above drug testing condition is suspended, based on the court's determination that you pose a low risk of future
substance abuse, {check ifapplicable)
□ You must make restitution in accordance with 18 U.S.C. §§ 2248,2259, 2264,2327, 3663, 3663A, and 3664. {check if
applicable)
C3 You must cooperate in the collection of DNA as directed by the probation officer, {check ifapplicable)
□ You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. § 20901, et
seq.) as directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in which you
reside, work, are a student, or were convicted of a qualifying offense, {check ifapplicable)
□ You must participate in an approved program for domestic violence, {check if applicable)
You must pay the assessment imposed in accordance with 18 U.S.C. § 3013.
If this judgment imposes a fine, you must pay in accordance with the Schedule of Payments sheet of this judgment.
You must notify the court of any material change in your economic circumstances that might affect your ability to pay
restitution, fines, or special assessments.

You must comply with the standard conditions that have been adopted by this court as well as with any other conditions on the
attached page.

APPENDIX B

Case 3:17-cr-00369-SI

Document 89

Filed 03/05/19

Judgment in a Criminal Case - DISTRICT OF OREGON CUSTOMIZED (Rev. 9/2017)
jlmeMA-Prnhatjon_____
DEFENDANT: JOHN M. WASSON
. CASE NUMBER: 3:17-CR-00369-SI-1

Page 3 of 6

A0245B

Judgment-Page 3 of 6

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are
imposed because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed
by probation officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
1.
2.
3.
4.
5.

6.
7.

8.

'

9.
10.

11.
12.

13.

You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of
the time you were sentenced, unless the probation officer instructs you to report to a different probation office or within a
different time frame.
After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how
and when you must report to the probation officer, and you must report to the probation officer as instructed.
You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission
from the court or the probation officer.
You must answer truthfully the questions asked by your probation officer.
You must live at a place approved by the probation officer. If you plan to change where you live or anything about your
living arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the
change. If notifying the probation officer in advance is not possible due to unanticipated circumstances, you must notify the
probation officer within 72 hours of becoming aware of a change or expected change.
You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation
officer to take any items prohibited by the conditions of your supervision that he or she observes in plain view.
You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses
you from doing so. If you do not have full-time employment you must try to find full-time employment, unless the probation
officer excuses you from doing so. If you plan to change where you work or anything about your work (such as your position
or your job responsibilities), you must notify the probation officer at least 10 days before the change. If notifying the
probation officer at least 10 days in advance is not possible due to unanticipated circumstances, you must notify the probation
officer within 72 hours of becoming aware of a change or expected change.
You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has
' been convicted of a felony, you must not knowingly communicate or interact with that person without first getting the.
permission of the probation officer.
If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything,
that was designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as
nunchakus or tasers).
You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant
without first getting the permission of the court.
If the probation officer determines that you pose a risk to another person (including an organization), the probation officer
may require you to notify the person about the risk and you must comply with that instruction. The probation officer may
contact the person and confirm that you have notified the person about the risk.
You must follow the instructions of the probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a written copy of this
judgment containing these conditions. For further information regarding these conditions, see Overview of Probation and Supervised
Release Conditions, available at: www.uscourts.eov.
Defendant's Signature

APPENDIX B

Date

Case 3:17-cr-00369-SI
AO 24 SB •

Document 89

Filed 03/05/19

Page 4 of 6

Judgment in a Criminal Case - DISTRICT OF OREGON CUSTOMIZED (Rev. 9/2017)
Sheet 4D - Probation'
Judgment-Page 4 of 6

DEFENDANT: JOHN M. WASSON
CASE NUMBER: 3:I7-CR-00369-SI-l

SPECIAL CONDITIONS OF SUPERVISION
1.

You must reside in and participate in the program a residential reentry center for a term of 60 days. You must follow the rules
and regulations of the center.

2.

You must refrain from engaging in mining in the Umatilla National Forest, specifically including the Slippery Rocks Mining
Claim. You must refrain from obtaining a mining claim or site from the.Bureau of Land Management for any location in the
Umatilla National Forest. -

3.

You must refrain from entering the Umatilla National Forest without first obtaining permission from the probation officer and
advance notice to the United States Attorney’s Office for the District of Oregon and the United States Forest Service. This does
not include driving on public state highways without stopping.

' 4.

You must refrain from residing in the Umatilla National Forest.

5.

You must provide the probation officer with written authorization from the United States Forest Service for any period of time
exceeding 14 days in a 30 day period of time on any federal property managed by the United States Forest Service.

6.

You must refrain from obtaining any a mining claim or site from the Bureau of Land Management for any location without prior
approval of the probation officer and notice to the United States Attorney’s Office for the District of Oregon and the United States.
Forest Service.

7.

You must submit your person, property, house, residence, vehicle, papers, or office, to a search conducted by a United States
probation officer. Failure to submit to a search may be grounds for revocation of release. You must wam any other occupants that
the premises may be subject to searches pursuant to this condition. The probation officer may conduct a search under this
condition only when reasonable suspicion exists that you have violated a condition of supervision and that the areas to be searched
contain evidence of this violation. Any search must be conducted at a reasonable time and in a reasonable manner.

8.

You must not work in any type of employment without the prior approval of the probation officer.

9.

If the judgment imposes a financial penalty, including any fine or restitution, you must pay the financial penalty in,accordance
with the Schedule of Payments sheet of the judgment. You must also notify the court of any changes in economic circumstances
that might affect your ability to pay this financial penalty.

10.

You must provide the probation officer with access tp any requested financial information and authorize the release of any
financial information. The probation office may share financial information with the U.S. Attorney's Office.

11.

You must not incur new credit charges, or open additional lines of credit without the approval of the probation officer.

12.

You must not make application for any loan, or enter into any residential or business lease agreement, without the prior approval
of the probation officer.

13.

After the defendant is released from the residential reentry center, the defendant must reside in the State of Oregon at a location
approved by the probation officer, unless the probation officer approves a residence outside the State of Oregon.

APPENDIX B

.
<£2
■fir.' >

"
.

rr.-

f
t a'.’v

369-SI

Case 3:17-ci

Document 89

Filed 03/0,

)

Page 5 of 6

Judgment in a Criminal Case - DISTRICT OF OREGON CUSTOMIZED (Rev. 9/2017)
Sheet 5 - Criminal Monetary Penalties
DEFENDANT: JOHN M. WASSON
CASE NUMBER: 3:17-CR-00369-SI-l
AO 245B

Judgment-Page 5 of 6

CRIMINAL MONETARY PENALTIES
. The defendant shall pay the following total criminal monetary penalties in accordance with the Schedule of Payments set forth in this
judgment.
Assessment
fas noted on Sheet 1)

Fine

Restitution

TOTAL

$100.00

$0.00

$28,817.00

$28,917.00

TOTALS

. An Amended Judgment in a Criminal Case will be entered

□The determination of restitution is deferred until
after such determination.

KIThe defendant shall make restitution (including community restitution) to the following payees in the amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment, unless specified otherwise
ill the priority order or percentage payment column below. However, pursuant to 18 U.S.C. § 3664(i), all non-federal victims must be
paid in full prior to the United States receiving payment.

ASC B&F Claims Branch
101B Sun Avenue Northeast
Albuquerque, NM 87109
TOTALS

Amount of Restitution
Ordered

Total Amount of Loss1

Name of Payee
$

Priority Order or
Percentage of Payment

$28,.817.00

$28,.817.00

□If applicable, restitution amount ordered pursuant to plea agreement: $0.00.
IE The defendant must pay interest on any fine or restitution of more than $2,500, unless the fine or restitution is paid in full before the
fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on the Schedule of Payments
may be subject to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).
IE The court determined that the defendant does not have the ability to pay interest and it is ordered that
lEThe interest is waived for the □ fine and/or IE restitution.
□ The interest requirement for the □ fine and/or □ restitution is modified as follows:

Any payment shall be divided proportionately among the payees named unless otherwise specified.

Findings for the total amount of losses are required under Chapters 109 A, 110, 110A, and 113A of Title 18, United States Code, for
offen^p^jpj^ji^^o^or after September 13, 1994, but before April 23, 1996.
i

Case 3:17-ci

369-SI

Document 89

Filed 03/01

)

Judgment in a Criminal Case - DISTRICT OF OREGON CUSTOMIZED (Rev. 9/2017)
Sheet 6 - Schedule of Payments
DEFENDANT: JOHN M. WASSON
CASE NUMBER: 3:17-CR-00369-SI-l

Page 6 of 6

A0245B

Judgment-Page 6 of 6

SCHEDULE OF PAYMENTS
Having assessed the defendant's ability to pay, payment2 of the total criminal monetary penalties shall be as follows:
due immediately, balance due
A. DLump sum payment of $
□not later than_____
., °r
□ in accordance with □ C, □ D, or □ E below; or
B. 13 Payment to begin immediately (may be combined with □ C, I3 D,.or □ E below); or
C. Dlf there is any unpaid balance at the time of defendant's release from custody, it shall be paid in monthly installments
, or not less than 10% of the defendant's monthly gross earnings, whichever is greater, until
of not less than $
paid in full to commence immediately upon release from imprisonment.
D. 13 Any balance at the imposition of this sentence shall be paid in monthly installments to be determined by the U.S.
Probation Officer until paid in full.
E. ^Special instructions regarding the payment of criminal monetary penalties:
Unless the Court has expressly ordered otherwise in the special instructions above, if this judgment imposes a period of imprisonment,
payment of criminal monetary penalties, including restitution, shall be due during the period of imprisonment as follows: (1) 50% of
wages earned if the defendant is participating in a prison industries program; (2) $25 per quarter if the defendant is not working in a
prison industries program.. If the defendant, received substantial resources from any source, including inheritance, settlement, or
other judgment, during a period of incarceration, the defendant shall be required to apply the value of such resources to any restitution
or fine still owed, pursuant to 18 USC § 3664(n).
Nothing ordered herein shall affect the government’s ability to collect up to the total amount of criminal monetary penalties imposed,
pursuant to any existing collection authority.
All criminal monetary penalties, including restitution, except those payments made through the Federal Bureau of Prisons’ Inmate
Financial Responsibility Program, are made to the Clerk of Court at the address below, unless otherwise directed by the Court, the
Probation Officer, or the United States Attorney.
Clerk of Court
U.S. District Court - Oregon
1000 S.W. 3rd Ave., Ste. 740
Portland, OR 97204
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.
□ Joint and Several
Case Number
Defendant and CoDefendant Names
(including Defendant number)

Total Amount

Joint and Several Amount

Corresponding Payee, if
appropriate

□The defendant shall forfeit the defendant's interest in the following property to the United States:

2 Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal,
(5)
(gmmunity restitution, (7) penalties, and (8) costs, including cost of prosecution and court costs.

